                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: Al1040027                                                                        Page 1 of 1



                                                       Closeout

                We conducted an inquiry into an allegation that a PI 1 (Subject) plagiarized text in an NSF
         Proposal. 2 In his response to us, the Subject revealed that a very similar proposal also contained
         the same copied text. 3 We referred an investigation to the University. 4 In the Subject's interview,
         he admitted that the unattributed text resulted from the fact that he copied-and-pasted from his
         former student's dissertation. The University concluded that "for an investigator ofhis stature
         and experience", 5 such a departure from the accepted practices of the research community is
         "research impropriety", 6 but not research misconduct.

                 We found that the University's Report did not fully address NSF's factors for assessing
         an allegation of research misconduct, nor could we accept the Subject's assurances against
         further copied text in lieu of a review for a possible pattern. We obtained more information from
         the Subject about two other NSF proposals in which we had found copied text. 7 Based on the
         Subject's answers, we found that the preponderance of the evidence supported the conclusion
         that the Subject knowingly plagiarized in four NSF proposals, which is a significant departure
         from accepted practices. We recommended actions to protect the federal interest. The Senior
         Advisor to the Director concurred with our recommendations.

                 This memo, the attached Report of Investigation, and the Senior Advisor's letter
         constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
SENSfTIVE                                                                                 SENSITTVE




         National Science Foundation
           Office of Inspector General




                     Report of Investigation
                    Case Number A11040027
                               March 27, 2013


                           This Report of Investigation is provided to you
                                     FOR OFFICIAL USE ONLY. .
1   It contains protected personal information, the unauthorized disclosure of which may result in
    personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
    disclosed witlrin NSF only to individuals who must have knowledge of its contents to
    facilitate· NSF's assessment and resolution of this matter. 'This report may be disclosed·
    outside NSF· only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
    552a. Please take appropriate precautions handling this report of investigation.

                                                                                NSF OIG Form 22.b (l/13)
SENSITIVE                                                                              SENSTI1VE


                                    Executive Summary


Allegation:      Plagiarism.

OIG Inquiry:     We initially identified 2 sources from which approximately 59 lines and 9
                 embedded references were copied into an NSF proposal that had one PI
                 (Subject). In his response to our letter, the Subject revealed that a similar
                 proposal also contained copied text We referred investigation of the matter to
                 the Subject's university (University).

University
Investigation:   During the University's investigation, the Subject revealed more copied
                 material, resulting in a revised total of 84 lines from 7 sources. The
                 unattributed text resulted from the fact that the Subject copied-and-pasted
                 from his former student's dissertation. The University concluded that no
                 research misconduct occurred.
OIG.
Investigation:   We found two more of the Subject's proposals with copied text. One proposal
                 had approximately 49 lines, and the other had 44 lines from 6 sources. The
                 Subject responded by saying he copied from another former student's
                 dissertation, along with one article.
OIG
Assessment:
                 •   The Act: The Subject plagiarized 177 lines from 13 sources into 4 NSF
                     proposals.
                 •   Intent: The Subject acted knowingly.
                 •   Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed knowing plagiarism.
                 •   Significant Departure: The Subject's plagiarism represents a significant
                     departure from accepted practices of the research community.
                 •   Pattern: The Subject's actions demonstrate a pattern of plagiarism.

OIG
Recommends:
                 •   Make a finding ofresearchmiscondlictagainst the Subject
                 •   Send the Subject a letter of reprimand.
                 •   Require certifications from the Subject for a period of2 years.
                 •   Require assurance from the Subject's employer for a period of2 years.
                 •   Require proof of completion by the Subject of an RCR training program
                     within 1 year.
                 •   Bar the Subject from participating as a reviewer, advisor, or consultant for
                     NSF for a period of 2 years.




                                               1
SENSITIVE                                                                                    SENSITIVE



                                                  OIG's Inquiry

       We conducted an inquiry into an allegation of plagiarism in an NSF proposal
(Proposall ). 1 Proposall contained 59 lines and 9 embedded references apparently copied from 2
        2
sources. We contacted the PI3 (Subject) about the allegation.4

        In his response, 5 .the Subject admitted to copying the text from the sources. He explained,
"Tab A was not cited. because Al is purely literature review on other papers [sic] work, not
Tab A's work." 6 For one sentence from Source B, he stated that the text was a commonly used
phrase. However, our Internet search revealed no other verbatim matches for the text. He also
told us he cited text copied from Source Bat certain points, but not others. 7 We noted that there
was a citation to Source B four times over approximately 1.5 pages of copied text and never
quotation marks to differentiate text composed by the source author. He also wrote, ''I was not
clear about the allowance of copies for literature review purposes."8                   '


        Based on our inquiry, we concluded that there was sufficient evidence to proceed to an
investigation of the Subject's actions. Consistent with our regulation, 9 we referred the
imvestigation to the Subject's University. 10

                                            University Investigation
                                                                                        12
       The Research Integrity Officer (the RIO), 11 consistent with University policy,
assembled a committee (the Committee) to conduct the investigation. After interviewing the
Subject, the Committee and the RIO provided us with a Report13 and attacbments 14•

        The Committee found that while the Subject's "actions fit the technical definition of
plagiarism primarily because he failed to distinguish the text of others by indenting or by
enclosure in quotes," 15 his actions did not meet the requisite level of intent for research
misconduct. The Committee made this determination based on his cooperation and answers from
the interview. 16 The Committee found that the reasons for the improperly attributed text were the




4
  Tab 3.
5
  Tab 4.
6
  Tab 4, p. D-1.   .
7
  Tab 4, Throughout.
8        <
  Tab 4, p. D-3.
9
    45 C.F.R    689.
10
11
12
   See Tab 6.
13 Tab 7.    -
14
   Tab 8.
15
   Tab 7, ''Enclosure 5: The Final Report," point 4. (p. 26 of PDF)
16
   Tab 7, "Enclosure 5: The Final Report," point 4. (p. 26 of PDF)


                                                           2
SENSITIVE                                                                                   SENSITTVE


Subject's lack of training or knowledge of proper quotation and citation procedures, honest error,
and difference of opinion.

         The Committee also delineated mitigating factors. First, they found that "the acts of
failing to distinguish copied text was limited to the literature search section of [Proposall] and
nowhere else" 17 and therefore were "only to set the stage for the substantive part of [Proposall]
which are the ideas he intended to investigate." 18 In addition, they determined his cooperation
indicated that the plagiarism was not intentional: "[the Subject] voluntarily identified seven
additional sources ofplagiarism." 19 Last, the Committee found that the lack of proper attribution
was due to the "substantial aid from a graduate student...." 20

        The transcript of the Subject's interview reveals that the Subject copied-and-pasted the
literature review from the student's Ph.D. thesis into Proposal I, though the student himself was
not involved in its preparation. During the interview, the Subject stated, "I prepared the content
of the proposal."21 He continued, "I think I have two riristakes here. First, I failed to identify in
the student ... version that he [copied], and also another mistake is I used the student version,
condensed it, put it into the NSF proposal."22 We noted the following exchanges:

         Committee: "[I]t is a common practice to take paragraphs or whatnot from student
                  dissertations as part of your publications and find out that you picked the
                  wrong paragraph where it hadn't been -- where you saw a citation and thought
                  you were okay and yet again the student may have just taken two paragraphs
                  from the original source."
         Subject:     ''Yes. Correct"23

         Committee: "The problem arose because you basically cut and pasted from a
                  dissertation."
         Subject:     ''Yes. I condensed it because the literature part [from the] student is quite
                  thick .... " 24

        The Committee concluded that "for an investigator ofhis stature and experience",25 such
a departure26 from the accepted practices of the research community is "research impropriety'', 27
but not research misconduct.




17
   Tab 7, ''Enclosure 5: The Final Report," point 6. (p. 26 of PDF)
18
   Tab 7, ''Enclosure 5: The Final Report," point 4. (p. 26 of PDF)
19
   Tab 7, ''Enclosure 5: The Final Report," point 5. (p. 26 ofPDF)
20
   Tab 7, ''Enclosure 5: The Final Report," point 5. (p. 26 of PDF)
21
   Tab 8, AttachmentJ,page4, line 17. (p. 2 ofPDF)
22
   Tab 8, Attachment J, page 7, lines 7-12. (p. 3 of PDF)
23
   Tab 8, Attachment J, page 8, lines 13-20. (p. 3 of PDF)
24
   Tab 8, Attachment J, page 9, lines 20-25. (p. 3 of PDF)
25
   Tab 7, "Enclosure 5: The Final Report," point 4. (p. 26 of PDF)
26
   Whether it was "significant'' or not was not clear from the report
27
   Tab 7, "Enclosure 5: The Final Report," point4 (p. 26 of PDF) and ''Enclosure 6:
• • (p. 29 of PDF).


                                                    \,..   3
SENSITIVE                                                                                              SENSITIVE


       In evaluating pattern, the Committee relied exclusively on the Subject's assertion that he
evaluated his publications/proposals and did not find plagiarism. The Committee concluded:

                 this represents essentially an isolated incident due to the thorough self-
                 evaluation of previous publications/proposals undertaken voluntarily by
                 [the Subject]. According to [the Subject], he has personally vetted every
                 other document that contained substantial sections written primarily by
                 students (who had not received any training in the responsible conduct of
                 research) within his research program.[ZSJ

       In his interview, the Subject said he would have carefully checked for inappropriately
copied text if he had more time. A committee member asked the Subject,

        Committee: "[Y]ou have written many, many proposals. Have you copied again from
                 student theses just the way that caused the problem here? Was this a special
                 case or has it been your practice in the past to take directly from students?"
        Subject:     "No, this is a special case. This one I was in a hurry to write a proposal.
                 This is why I did not check and I used the student and did not carefully check
                 that, leading to this." 29

        The Committee made the following recommendations: 1) the Subject should be found to
have committed plagiarism in his NSF Proposal; 2) because the Subject's actions were not
knowing, his acts constitute research impropriety, not misconduct; 3) the Subject should take
Internet-based training in RCR; 4) the Subject should amend any pending NSF proposals that
may need quotes for copied text; and 5) two general administrative recommendations for the
University. ·                      ·

      The Deciding Official concurred with the Committee's findings and the four
recommendations pertinent to the Subject.

                              · OIG's Assessment of the University Report

        We assessed the Report for accuracy and completeness and whether the University
followed reasonable procedures in its investigation. 30 We found that the University's Report did
not fully address NSF's factors for detennining a finding of research misconduct. For example, it
is unclear how plagiarism committed at the level of ''research impropriety'' relates to research
i:nisconduct. Furthennote, it was the Subject himself who did the review for pattern and not the
Committee. The Committee further found that, because the Subject had "substantial aid from a
                                                                                              31 32
graduate student who had not received any training in the responsible conduct of research", '
the issue of pattern was less relevant in this case.


28
   Tab 7, "Enclosure 5: The Final Report," point 5. (p. 26 of PDF)
29
   Tab 8, At'"..achment J, page 12, lines 12-22. (p. 2 ofPDF)
30
   45 C.F.R §689.9(a).
31
   The Subject had told them that he copied-and-pasted from the dissertation of a former advisee who had already
graduated. (Tab 8, Attachment J, page 9,lines 20-25. (p. 3 of PDF))
32
   Tab 7, "Enclosure 5: The Final Report," point 5. (p. 26 of PDF)


                                                          4
SENSIT1VE                                                                                                  SENSITIVE




        We disagreed in part with factors they weighed substantially. They concluded that
plagiarism limited to the literature review was a determinative factor of whether research
misconduct occurred. However, NSF does not make a distinction between instances of
plagiarism in the background section and instances in other sections in reaching a conclusion
about whether misconduct has occurred. Any copied text serves to misrepresent the researcher's
knowledge of the field, presenting reviewers with an inaccurate representation of a proposal's
respective merit. While the Committee accepted the Subject's statement that the first line from
Source B did not need citation, we found only one source that matched the string in question
verbatim: ·Source B. Further, the line in question is a relatively small part of the 1.5 pages of
copied text from the source. The Committee's conclusion did not account for the absence of
citation for the remainder of Source B.

                                                OIG's Investigation

     We notified the Subject that we were proceeding with our own investigation and invited
comments on the University's report; he provided no comments. 33

        Although the Committee relied exclusively on the Subject's review of his own work for
additional plagiarism, we examined 12 more NSF proposals in which the Subject was the sole
PI. 34 Of those 12, we found a de minimis amount of apparently copied text in 1035 of the
proposals. Of the two remaining, one (Proposal23 ~ had 49 lines, 7 embedded references, and 1
embedded typo, 37 and the other (Proposal3 38) had 44lines and 4 embedded references.

        We wrote to the Subject about Proposals 2 and 3. 39 In his reply, he pointed out other
proposals that contain material not properly attributed, four of which we had already reviewed as
discussed above with one additional. 40 He replied that the copying was "only for literature
review or background introduction". 41 He. stated, "I admit that the two proposals ... contain
materials from Tab 2A-F, which is violation of NSF rule, although they were used for the
purpose ofliterature review or background introduction.',42 For Proposal2, he admitted: "I copied
the literature review from ~a former student]'s thesis ... , which contains the indicated source

33
     Tab 9.
34
     Some redundancy existed; five of the proposals were substantially similar to at least one other submitted NSF




   In the copied text ofProposa12, a dash in the word "net-work'' appears. This appears to have resulted from copy-
and~paste    since the word crossed a line boundary in the source document (and hence a dash appears). This is the
only place in·            where the word "network" has a dash.
38
   Tab 10,
(W•"i-1'rir<omn
39
   Tab 10.
40
   Tab 11
                           (Declined).
   Tab 11, p. D-3 of"Response6-27.pdf'.
42
   Tab 11, p. D-3 of''Response6-27.pdf.'.


                                                            5
    SENSTTIVE                                                                                      SENSITIVE


                                     44
    documents (Tabs 2A-D)." 43 • The Subject said his mistake was the faijure to check the
    student's work for proper citations before the Subject copied it into his proposal: "The
    expianation for not properly citing the Tabs C and D is my failure to identify the missing
    citations in my student's thesis when using his thesis for the proposal ... .',45 We noted that this
    contrasts with his statement to the Committee that the act of copying from a student's
    dissertation for Proposal! was a "special case" brought about by an unusual need for haste. He
    did not address the lack of citation to the student's dissertation, which was the actual source text
    he copied. The Subject additionally wrote that Proposall contains unquoted material from two
    additional sources, which he attached to his response as sources G and H.

             For Proposal3, he said that almost all of the copied text was from an article describing his
    work=-; ht)weve-r:; due to "care1essness'';.46 1-HS failed. to c:ite the ardcle,. For a portion of text in
    Proposal3 copied from Source F, he points out that he cited the paragraph. We concur but note
    that he did not use quotation marks in any part.

            In the letter responding to our questions about Proposals 2 and 3, he also stated that he
    has received training in research integrity and has now had more than one year to learn about
    plagiarism. In addition, he wrote that he now understands his mistake in failing to check the
    student's literature review for appropriate citation practices. This contradicted his repeated
    assertions that literature reviews do not warrant the same careful attribution practices given to
    other subsections.

            We also reviewed the Subject's Biographical Sketch and found he has 25+ years of
    experience reading and writing scholarly articles. In addition, he has held several research and
    teaching positions in the United States or Canada since 1987, including teaching positions at
    prominent universities. According to the website of his department at the University, he has
    dozens of publications, most of which are in prominent English-language journals within his
    field; he has also been recognized for distinguished work by more than one American university,
    signaling that he is an active and productive researcher and would be exposed to American
    research standards over the years.

                                                OIG's Assessment

           A finding of research misconduct by NSF requires (1) there be a significant departure
    from -accepted practices of the relevant research community, (2) the research misconduct be
    committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
    preponderance of the evidence. 47




    43
-      The former student i s -
    44 Tab 11, p. D-1 of''Response6-27.pdf'.
    45
       Tab 11, p. D-3 of''Response6-27.pdf'.
    46
       Tab 11, p. D-3 of''Response6-27.pdf'.
    47
       45 C.F.R. §689.2(c).               .


                                                        6
SENSITIVE                                                                                 SENSITIVE



                                                   The Act

       Our review found the Subject copied 177 lines from 13 sources into 4 NSF proposals,
with 20 embedded references, and one embedded typo. The Subject not only plagiarized from the
work of his graduate students, but also from a journal article which summarized some of his
previous research. The Subject's actions constitute plagiarism and are a significant departure
from accepted practices.

                                                    Intent

        Wefmd that the Subject acted knowingly. The Subject admitted that he copied-and-
pasted from his former students' dissertations. Copying and pasting is an inherently knowing act.
He stated numerous times in his letters and in his interview that he did not know the correct
                   48
citation practices. However, he also stated in the same letters and interview that his primary
mistake was not taking the time to identify whether the student had copied text in his
             49
dissertation, indicating that he knew copied material required special treatment relative to
originally composed material. Yet, the Subject chose to ignore those attribution requirements in
his NSF proposals. Furthermore, despite being educated outside the United States, the Subject
has an extensive record of publication in major English-language journals and extensive teaching
experience. Therefore, we conclude the Subject knowingly plagiarized both from his students'
dissertations and from another researcher's characterization ofhis own work.

                                             Standard ofProof

        The preponderance of the evidence indicates that the Subject, With his long publication
and teaching record in the United States, failed to invoke the recognized conventions of
attribution when using another researcher's written statements and/or analyses, even when the
researcher is writing about previous literature. We conclude that a preponderance of the evidence
supports finding that the Subject committed plagiarism knowingly.

                                   OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF should
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether ithad a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 5°




a                                  .
   For example: Tab 8, Attachment J, page 8, lines 1-5. (p. 3 of PDF)
49
   Tah 8, AttachmentJ,page7, lines 7-12 (p. 3 ofPDF) and page 5, lines4-6. (p. 2 ofPDF)
50
   45 <;:.F.R. § 689.3(b).


                                                       7
SENSITIVE                                                                                  SENSTI1VE



                                                     Seriousness

         NSF evaluates the proposal as a whoie, treating the background and iiterature review
sections as :indicators of a PI's ability to authoritatively summarize previous research to
demonstrate expertise and knowledge of the state-of-the-art. Copied text, particularly in the
background section of an NSF Proposal, misrepresents a researcher's command of previous
research, presenting reviewers with an inaccurate representation of a proposal's respective merit.
It is also problematic that the Subject assured the Committee that no other documents contained
plagiarism and that he had only copied from a student's dissertation one time. Our investigation
demonstrates these assertions are untrue.



        The evidence supports that the Subject has a pattern of misconduct that is demonstrated
not only by the plagiarism in his other proposals but also in his failed oversight of his students'
training in appropriate attribution of sources.

                                     Impact on Research Record and Others

         Because we identified no publications containing plagiarism, we conclude there was no
-discernible impact on the research record. However, the Subject's actions impacted at least two
 of his NSF-funded students whose copying demonstrates the Subject's lack of oversight and
 guidance. This lapse in mentoring led to his incorporati'?n of their plagiarism into his proposals.

                                           Other relevant circumstances

        We disagree with the mitigating weight the University gave to ''his stature and
experience," instead considering these aggravating factors. In addition, while responding to
questions about Proposals 2 and 3, the Subject told us he had received training in research
integrity in the period since our inquiry. However, -in the same letter, he continued to assert that
citing copied text without quotes is acceptable without addressing whether he should have cited
the actual source from which he copied:. the student's dissertation. This suggests that the training
the Subject previously received did not adequately address the topic of plagiarism and that more
training is warranted.                  ·

                                                 Recommendations

            Based on the evidence, OIG recommends NSF:

                 •   Send a letter of reprimand to the Subject informing him that NSF has made a
                     finding of research misconduct; 51
                 •   Require the Subject to certify his compliance with the requirements imposed by
                     the University as a result of its investigation.                          '



 51
      A Group I action (45 C.F.R §689.3(a)(l)(i)).


                                                          8
·SENSITIVE                                                                                   SENSITIVE


               •   Require .the Subject to certify to the Assistant Inspector General for Investigations
                   (AlGI) his completion of a responsible conduct of research training program and
                                                                                                       2
                   provide documentation of the program's content within 1 year ofNSF's finding. 5
                   The instruction should be in an interactive format (e.g., an instructor-led course)
                   and specifically include instruction on plagiarism and proper demarcation of
                   verbatim text. This should be in addition to the training program he completed as
                   required by the University.

          For a period of2 years as of the date ofNSF's finding:
             • Bar the Subject from participating-as a peer reviewer, advisor, or consultant for
                 NSF. 53
             • Require for each document (proposal, report, etc.) to which the Subject
                 contributes for submission to NSF (directly or through his institution),
                     o the Subject to submit a contemporaneous certification to the AlGI that the
                         document does not contain plagiarism, falsification, or fabrication. 54
                     o the Subject to submit Contemporaneous assurances from a responsible
                         official of his employer to the AlGI that the document does not contain
                         plagiarism, falsification, or fabrication. 55             .


                        Subject's Response to OIG's Draft Investigation Report

         The Subject responded to our draft report and reiterated his argument that he was
 unaware of the need for quotation marks. Ife also asserted that, because of his intellectual
 contribution to his students' dissertations, the text he copied into the NSF Proposal from the
 dissertations required neither citation nor quotes. 56 However, his admission that he failed to
 carefully check the student's work weighs against finding that he had any significant
 contribution to the words and phrases that expressed the ideas and as such we should treat him as
 a coauthor of the dissertation. Based on his comments, we modified the intent section to clarify
 our assessment; however, our conclusion of his level of intent is unchanged.




 52
    This action is similar to Group I actioris 45 C.F.R. 689.3(a)(l).
 53
    A Group ill action 45 C.F.R. 689.3(a)(3)(ii).
 54
    This action is similar to 45 C.F.R. 689.3(a)(l)(ili).
 55
    A Group I action45 C.F.R. 689.3(a)(l)(ili).
 56
    Tab 12.


                                                             9
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




                                                                             DEC 1 B1013

    OFFICE OF THE
   DEPUTY DIRECTOR



CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice ofResearch Misconduct Determination

Dear-

       You served as a Principal Investigator on four proposals submitted for funding to the
National Science Foundation. As documented in the attached investigative report prepared by
NSF's Office of Inspector General ("010"), these proposals contained plagiarized material.

Research Misconduct and Sanctions

        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 4 5 CFR § 689.1 (a). NSF
defmes "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposals contained in aggregate 177 lines of copied text from 13 sources into four
NSF proposals. By submitting proposals to NSF that copied the ideas or words of another
without adequate attribution, as described in the OIG investigative report, you misrepresented
someone else's work as your own. Your conduct unquestionably constitutes plagiarism. I
therefore conclude that your actions meet the applicable definition of "research misconduct" set
forth in NSF's regulations.
                                                                                             Page2
        Pursuant to NSF's regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
 evidence, your plagiarism was co:rmnitted knowingly and constituted a sigDificant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR §689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR §689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

       In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
knowingly. I have also considered the fact that your misconduct was not an isolated incident, In
addition, I have considered other relevant circumstances. 45 CFR § 689.3(b).

    After assessing the relevant facts and circumstances of this case, I am imposing the following
actions on you:

    •   Until December 15, 2015, you must provide certifications to the OIG that any proposal or
        report you submit to NSF as a Principal Investigator (PI) or co-PI does not contain
        plagiarized, falsified, or fabricated material.

    •   Until December 15, 2015, you must obtain and provide to the OIG assurances from a
        responsible official of your employer that any proposals or report you submit to NSF as a
        PI or co-PI does not contain plagiarized, falsified, or fabricated material.

    •   By December 15, 2014, you must complete a comprehensive responsible conduct of
        research training course, and provide documentation of the program's content to the OIG.
        The instruction should be in an interactive format (e.g., an instructor-led course) and
        should specifically include a discussion on plagiarism and citation practices;

    •   Until December 15, 2015, you are prohibited from serving as an reviewer, advisor, or
        consultant for NSF; and
                                                                                            Page3


   •   By May 15, 2014, you must certify compliance I fulfillment of the requirements imposed
       by your University as a result of its investigation.

   The certificationS, assurances, and training documentation should be submitted in writing to
NSF's Office oflnspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.

Procedures Governing Appeals

        ·Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this fmding, in writing, to the Director ofthe Foundation. 45 CFR 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision on the finding of research misconduct will become final.

       For your information, I am attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please c o n t a c t - · Assistant General Counsel, at
(703)292~.

                                                     Sincerely,




                                                     FaeKorsmo
                                                     Senior Advisor



Enclosures:
Investigative Report
45 CFR Part 689
